CERTIFICATE OF SERVICE

Case No. 20-1599
Caption: John Doe 7, et al. v. Chiquita Brands International, Inc.
I hereby certify that I am a member in good standing of the
bar of this Court, and on this 8th day of July, 2021, I filed the
foregoing electronically with the Clerk of the Court for the United
States Supreme Court. I further certify that on this day, I sent one
copy to this Court (pursuant to Guidance Concerning Clerk’s Office
Operations, Apr. 17, 2020) of the foregoing via United Parcel
Service overnight shipping. I further certify that all parties
required to be served have been served as required by Sup. Ct. R.
29(3). I served one copy of the foregoing via electronic mail upon:
Kevin K. Russell
Goldstein and Russell, P.C.
7475 Wisconsin Avenue,
Suite 850
Bethesda, MD 20814
(202) 362-0636
krussell@goldsteinrussell.com

Michael Lawrence Cioffi
Blank Rome
210 East Fifth Street,
Suite 1700
Cincinnati, OH 45202
(513) 362-8701
cioffi@blankrome.com

Attorney for Petitioners

Attorney for Respondent

___________________
Charity Ryerson
July 8, 2021

